2311 Douglas Street

COCKLE

Le ga | Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-168

REMINGTON ARMS CO., LLC, et al.,
Petitioners,

Vv.
DONNA L. SOTO, ADMINISTRATRIX
OF THE ESTATE OF VICTORIA L. SOTO, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE PROFESSORS OF SECOND
AMENDMENT LAW, CATO INSTITUTE, FIREARMS POLICY COALITION, FIREARMS POLICY FOUNDATION,
CALIFORNIA GUN RIGHTS FOUNDATION, MADISON SOCIETY FOUNDATION, AND INDEPENDENCE
INSTITUTE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served
by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOSEPH G.S. GREENLEE DAVID B. KOPEL
FIREARMS POLICY COALITION Counsel of Record
1215 K Street, 17th Floor INDEPENDENCE INSTITUTE
Sacramento, CA 95814 727 East 16th Avenue
(916) 378-5785 Denver, CO 80203
jgr@fpchq.org (303) 279-6536
david@i2i.org

Subscribed and sworn to before me this 4th day of September, 2019.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE +
General Notary . Chk,
State of Nebraska ~ ‘,

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38411

 
SERVICE LIST

Scott A. Keller

Baker Botts LLP

1299 Pennsylvania Ave., NW
Washington, D.C. 20004
(202) 639-7837
scott.keller@bakerbotts.com
Counsel for Petitioners

Joshua D. Koskoff

Alinor C. Sterling

Katherine Mesner-Hage
Koskoff, Koskoff & Bieder, P.C.
350 Fairfield Avenue, Suite 501
Bridgeport, CT 06604

(203) 336-4421
jkoskoff@koskoff.com

Counsel for Respondents
